         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA Needs a Comprehensive
       Research Plan and Policies to
       Fulfill its Emerging Climate
       Change Role
       Report No. 09-P-0089

       February 2, 2009
Report Contributors:	               Manju Gupta
                                    Jeffrey Harris
                                    Jeffrey S. Hart
                                    Lauretta Joseph
                                    John Patrick
                                    Kalpana Ramakrishnan
                                    Denton Stafford




Abbreviations

BOSC          Board of Scientific Counselors
CCSP          Climate Change Science Program
CCTP          Climate Change Technology Program
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
GCRP          Global Change Research Program
OAR           Office of Air and Radiation
OIG           Office of Inspector General
ORD           Office of Research and Development




Cover Photos: 	 Picture on left shows a hurricane striking a sea wall (photo courtesy National
                Oceanic and Atmospheric Administration). Middle picture shows solar and
                wind technologies (photo courtesy California Public Utilities Commission).
                Picture on right shows coastal erosion in Pacifica, California (photo courtesy
                National Aeronautics and Space Administration).
                       U.S. Environmental Protection Agency 	                                              09-P-0089
                                                                                                     February 2, 2009
                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review            EPA Needs a Comprehensive Research Plan and
                                  Policies to Fulfill its Emerging Climate Change Role
We sought to answer the
question: how well do the
                                  What We Found
policies, procedures, and plans
of the U.S. Environmental
                                  EPA does not have an overall plan to ensure developing consistent, compatible
Protection Agency (EPA) help
                                  climate change strategies across the Agency. We surveyed EPA regions and
ensure that its climate change
                                  offices and found they need more information on a variety of climate change
research fulfills its role in
                                  topics. They need technical climate change research and tools as well as other
climate change?
                                  climate change policy guidance and direction. We learned that, in the absence of
                                  an overall Agency plan, EPA’s Office of Water and several regional offices have
Background
                                  independently developed, or are developing, their own individual climate change
                                  strategies and plans. The lack of an overall climate change policy can result in
EPA is 1 of 13 federal
                                  duplication, inconsistent approaches, and wasted resources among EPA’s regions
agencies that make up the
                                  and offices. EPA has not issued interim guidance to give its major components
U.S. Climate Change Science
                                  consistent direction to ensure that a compatible national policy – when it emerges
Program, which guides federal
                                  – will not result in wasted efforts.
research through its strategic
plan. Part of EPA’s role is
                                  EPA’s latest plan for future climate change research does not address the full
understanding the regional
                                  range of emerging information needs. Specifically, the projected time of
consequences of global
                                  completion or the scope of some research projects do not match the timing or the
change. EPA’s Office of
                                  scope of regions’ needs. ORD does not have a central repository of its climate
Research and Development
                                  change research for its internal users, nor does it effectively communicate the
(ORD) handles this function.
                                  results of its climate change research to EPA’s internal users. While ORD
EPA’s Office of Air and
                                  collects research requirements from regions and program offices, the selection
Radiation conducts activities
                                  criteria for research topics are not transparent to the regions. Finally, ORD does
related to mitigating
                                  not have a system to track research requests through completion, or a formal
greenhouse gases. ORD
                                  mechanism to obtain feedback from its users.
manages EPA’s climate
change research function
through its Global Change         What We Recommend
Research Program.
                                  We recommend that the Deputy Administrator direct Assistant and Regional
                                  Administrators on how to plan for climate change challenges in their media
For further information,          areas/regions until the Agency develops an overall strategy; and establish
contact our Office of             guidance for regularly entering their climate change scientific information in the
Congressional, Public Affairs
and Management at
                                  Science Inventory. We also recommend that the Assistant Administrator for ORD
(202) 566-2391.                   establish various management controls to ensure EPA fulfills its emerging climate
                                  change role and related information needs. The Agency concurred with our
To view the full report,          recommendations.
click on the following link:
www.epa.gov/oig/reports/2009/
20090202-09-P-0089.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         February 2, 2009

MEMORANDUM

SUBJECT:	              EPA Needs a Comprehensive Research Plan and Policies to Fulfill its
                       Emerging Climate Change Role
                       Report No. 09-P-0089


FROM:	                 Wade Najjum
                       Assistant Inspector General, Office of Program Evaluation

TO:                    Lisa P. Jackson
                       Administrator

                       Lek Kadeli
                       Acting Assistant Administrator for Research and Development


This is our report on the Climate Change Program evaluation conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This report
contains findings that describe the problems the OIG has identified and corrective actions the
OIG recommends. This report represents the opinion of the OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $636,217.

Recommendations 2-1 and 3-1 of this report are addressed to the Deputy Administrator, and
Agency comments were received from the Deputy Administrator. The Deputy Administrator
position is currently vacant. Therefore, we are addressing this report to the Administrator.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.
If you or your staff has any questions regarding this report, please contact me at 202-566-0827;
or Jeffrey Harris, Director of Cross Media, at 202-566-0831 or harris.jeffrey@epa.gov.
EPA Needs a Comprehensive Research Plan and                                                                                  09-P-0089
Policies to Fulfill its Emerging Climate Change Role


                                   Table of Contents 


Chapters
   1     Introduction ...........................................................................................................      1


                 Purpose ..........................................................................................................    1         

                 Background ....................................................................................................       1         

                 Noteworthy Achievements..............................................................................                 5         

                 Scope and Methodology.................................................................................                5


   2     EPA Regions Have Multiple Climate Change Needs..........................................                                      7


                 EPA Regions Need Differing Climate Change Information ............................                                    7

                 EPA’s Office of Water and Most Regional Offices Are Independently 

                   Developing Climate Change Strategies ....................................................                           9

                 Conclusions....................................................................................................      10 

                 Recommendation ..........................................................................................            10 

                 Agency Comments and OIG Evaluation.........................................................                          10 


   3     Research Plan Does Not Address All Regions’ Climate Change Needs..........                                                   12     


                 Regions Need Climate Change Information and Tools 

                   Directed at Regional and Local Levels.. ....................................................                       12 

                 The Timing and Scope of ORD’s Planned Projects 

                   Do Not Meet Key Regional Needs.............................................................                        13 

                 EPA Lacks Policies to Meet Internal Climate Change 

                   Information Needs Effectively....................................................................                  15 

                 Conclusions....................................................................................................      17 

                 Recommendations ........................................................................................             18 

                 Agency Comments and OIG Evaluation.........................................................                          19 


   Status of Recommendations and Potential Monetary Benefits.................................                                         20     



Appendices
    A     Agency Response and OIG Evaluation .............................................................                            21     


    B     Agency Preliminary Comments and OIG Evaluation .......................................                                      26     


    C     Distribution ..........................................................................................................     30     

                                                                                                        09-P-0089 





                                            Chapter 1
                                             Introduction

Purpose
                 The overall purpose of this evaluation was to answer the question, “How well do
                 the policies, procedures, and plans (i.e., internal/management controls) of the
                 U.S. Environmental Protection Agency (EPA) help ensure that its climate change
                 research fulfills its climate change role and related internal needs?”

                 To accomplish this objective, we answered the following questions:

                 (1) What research products or information do EPA's program and regional offices
                     need to fulfill EPA’s climate change role? Do EPA’s Office of Research and
                     Development (ORD) climate change research plans meet the information
                     needs of EPA’s program and regional offices?

                 (2) Does EPA have policies, procedures, or other internal/management control
                     mechanisms in place to efficiently and effectively coordinate its climate
                     change research, and to ensure expertise across the Agency is being used to
                     fulfill its climate change role?

Background
                 Since the enactment of the Global Change Research Act of 1990, EPA’s research
                 on climate change – also known as global warming – has been part of a national and
                 international framework. EPA is 1 of 13 federal agencies that comprise the U.S.
                 Climate Change Science Program (CCSP). The CCSP was launched in 2002. The
                 CCSP incorporated both the U.S. Global Change Research Program (GCRP) and
                 the U.S. Climate Change Research Initiative of 2001. The CCSP Strategic Plan
                 guides federal research on climate change, and the 13 agencies focus their research
                 on areas related to their unique missions in a collaborative effort.1 Figure 1.1 on
                 page 2 shows the relationships between these different organizations.

                 CCSP’s strategic plan defines EPA’s role as having a primary focus on
                 understanding the regional consequences of global change. Within EPA, ORD
                 performs this role. ORD has the responsibility for assessing the potential impacts


1
 CCSP assessment activities, in turn, contribute to the work of the Intergovernmental Panel on Climate Change.
Established by the United Nations and the World Meteorological Organization, the Intergovernmental Panel on
Climate Change assesses scientific, technical, and socio-economic information to better understand climate change, its
potential impacts, and options for adaptation and mitigation.



                                                         1

                                                                                                          09-P-0089 



                  of climate change and evaluating adaptation options.2 The Office of Air and
                  Radiation (OAR) has responsibility for activities related to mitigating greenhouse
                  gases. Both ORD and OAR communicate science findings and information about
                  adaptation options.

                  Figure 1.1: Relationships between International, National (U.S. Federal), and EPA
                  Climate Change Programs



                   International Level                      Intergovernmental Panel on Climate Change




                                                        U.S. Global Change              U.S. Climate Change
                    U.S. Federal Level                  Research Program                 Research Initiative
                                                               1990                             2001




                                                        U.S. Climate Change
                                                                                       U.S. Climate Change
                                                         Science Program
                                                                                       Technology Program
                                                       (CCSP) 2002,includes
                                                                                           (CCTP) 2002
                                                         13 federal agencies




                                        EPA ORD Global                                               EPA OAR Climate
                                                                       EPA OAR Climate
                    EPA Level           Change Research                                                  Protection
                                                                       Change Division
                                        Program (GCRP)                                              Partnership Division


                   Source: Office of Inspector General (OIG)



                  We focused primarily on ORD because it has the central responsibility for EPA
                  climate change research under the CCSP, and because ORD is the scientific
                  research arm of EPA. ORD’s mission is to:

                      •    perform research and development,
                      •    provide responsive technical support to EPA,
                      •    integrate the work of ORD's scientific partners, and
                      •    provide leadership in addressing emerging environmental issues.


2
 While the primary focus of ORD climate research has been on assessing the potential impacts of climate change
and alternative adaptation options, this is changing given the directives of the Fiscal Year 2008 Appropriations Bill.
ORD also has some responsibility for mitigation. Further, as discussed in Chapter 3, EPA’s draft 2008 GCRP multi-
year plan synopsis addresses four different categories of regional mitigation research decisions/concerns: (1) Clean
energy, (2) Renewables/Biofuels (wind & solar), (3) Mitigation models, and (4) Sequestration.


                                                          2

                                                                                                           09-P-0089 



                  ORD manages EPA’s climate change research function through its GCRP.3
                  ORD’s GCRP not only assesses the impacts of global change; it also focuses on
                  the implications of climate change on EPA’s ability to satisfy its statutory,
                  regulatory, and programmatic requirements. EPA also has statutory obligations to
                  provide scientific information to organizations other than EPA regional and
                  program offices.

                  The scope of OAR’s interest is similar to the scope of ORD's climate change
                  work. However, OAR is focusing more on mitigation and the effect of regional
                  air quality control strategies on climate change, as opposed to the effect of climate
                  change on regional air quality.

                  EPA Climate Change Research Funding

                  Relevant scientific and technical work is coordinated across the Federal
                  Government by the CCSP and the U.S. Climate Change Technology Program
                  (CCTP). CCSP received about $1.8 billion in Fiscal Year (FY) 2008, and CCTP
                  received about $3.9 billion. In contrast, EPA received about $36.6 million in
                  FY 2008 for Science and Technology funding for climate change. ORD's budget
                  for GCRP, ranging between about $16 and $20 million annually over the last
                  3 years, is about 1 percent of the total CCSP budget.

                  ORD’s overall budget for FYs 2001-2008 decreased (using inflation adjusted
                  dollars) 20 percent from $696 to $548 million, while its GCRP budget declined
                  36 percent from $28 to $18 million during the same period. GCRP’s budget has
                  been about 3 percent, on average, of ORD’s entire budget for the last 6 years as
                  shown in Figure 1.2.4




3
  A 2008 GCRP Multi-Year Plan Synopsis describes EPA’s GCRP as stakeholder-oriented, with primary emphasis 

on assessing the potential consequences of global change (particularly climate variability and change) on air quality, 

water quality, aquatic ecosystems, and human health in the United States. 

4
  Congress’ passed Science and Technology Omnibus FY 2008 spending bill specifically increases the GCRP’s 

budget and stipulates that the new resources will be used to conduct research in support of the Agency’s efforts to

regulate greenhouse gas emissions.



                                                          3

                                                                                                                                        09-P-0089 



                   Figure 1.2: ORD Global Climate Research Plan Budgets as a Percentage of ORD’s
                   Total Budgets, FYs 2001-2008




                                                   $900
                      Millions in 2008 Inflation
                                                                          $745    $736
                                                   $800
                                                          $696   $707                      $683
                       Adjusted Dollars ($)

                                                   $700
                                                                                                      $634    $577
                                                   $600                                                                $548
                                                                                                                                 ORD Total
                                                   $500
                                                                                                                                 GCRP
                                                   $400
                                                                                                                                 GCRP/Total (%)
                                                   $300
                                                            4.0%    3.5%     3.0%       3.3%    3.2%     3.2%    2.9%     3.3%
                                                   $200
                                                   $100     $28      $25     $22        $24      $22     $20      $17     $18
                                                    $0
                                                          2001     2002    2003     2004       2005    2006     2007    2008
                                                                                    Fiscal Years

                    Source: OIG



                   EPA’s Evolving Climate Change Role

                   The evolving mission for EPA includes a larger role in researching alternative
                   strategies to mitigate climate change. In the January 2007 State of the Union
                   Address, President Bush stated:

                                                   America is on the verge of technological breakthroughs that will
                                                   enable us to live our lives less dependent on oil. And these
                                                   technologies will help us be better stewards of the environment,
                                                   and they will help us to confront the serious challenge of global
                                                   climate change.

                   Soon after the President emphasized that climate change was a “serious
                   challenge,” in April 2007, the Supreme Court held that “… the Clean Air Act
                   authorizes EPA to regulate emissions from new motor vehicles on the basis of
                   their climate change impacts….” 5 The Court decision contributed to shifting
                   EPA’s role from focusing not only on assessing impacts of and adaptation to
                   climate change, but also on mitigation measures.

                   Shortly thereafter, on June 11, 2007, EPA issued a Working Paper, EPA
                   Administrator’s Priorities: Clean Energy and Climate, “…to help accelerate
                   environmental protection, reduce greenhouse gases, and strengthen energy
                   security.” Subsequently, EPA programs and regions (and their respective States)

5
    Massachusetts et al. v. EPA (Case No. 05-1120).


                                                                                   4

                                                                                   09-P-0089 



         began identifying additional needed climate change research, information, and
         related products.

Noteworthy Achievements
         The Board of Scientific Counselors (BOSC) is a public advisory committee
         chartered under the Federal Advisory Committee Act that provides advice,
         information, and recommendations about the ORD research program. A BOSC
         subcommittee performed a review of ORD’s GCRP and published its final report
         on March 27, 2006. The review found that within the context of what GCRP had
         been asked to do so far, it had done the “right work” and that it had done it “well.”

Scope and Methodology
         To determine how well EPA’s policies, procedures, and plans (i.e.,
         internal/management controls) help ensure that its climate change research fulfills
         EPA’s climate change role and related internal needs, we reviewed documents
         relating to:

            •   ORD’s and EPA’s responsibilities and policies on climate change,
            •   EPA’s 2006-2011 Strategic Plan,
            •   GCRP’s 2008-2012 Draft Multi-Year Plan,
            •   BOSC’s Mid-Cycle Review of GCRP, and
            •   legislation regarding climate change.

         We also reviewed documents provided by the GCRP National Program Director
         and attended several relevant conferences concerning climate change.

         We conducted two surveys to identify what research products or information
         EPA's program and regional offices need to fulfill EPA’s climate change role.
         We sent the first survey to regions and program offices to identify the universe of
         specific climate change decisions and concerns, and to determine the adequacy of
         EPA’s climate change policies and procedures.

         We sent a second survey to selected ORD managers and staff to obtain
         information on ORD’s existing and planned climate change research products as
         well as EPA’s policies. We analyzed responses from the 10 EPA regions, OAR,
         and ORD’s GCRP. We judgmentally chose five climate change decisions and
         products to use as case studies for more detailed follow-up. The five case studies
         came from five different EPA regions. We then conducted follow-up interviews
         with representatives of the five regions.

         To determine whether GCRP’s climate change research plans meet the
         information needs of EPA’s programs and regional offices, we analyzed and
         compared GCRP planned research product topics and timeframes to the decisions
         and concerns identified by regions. We also reviewed ORD’s budgets for the last


                                           5

                                                                       09-P-0089 



8 years and compared them to annual ORD and GCRP budgets to identify any
funding trends. Further, we interviewed selected external stakeholders concerned
with climate change or research.

We conducted this review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the review
to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon
our objectives. We performed our evaluation between November 2007 and
April 2008.




                                6

                                                                                    09-P-0089 




                                Chapter 2
                  EPA Regions Have Multiple
                    Climate Change Needs

          EPA does not have an overall plan or other means to ensure the development of
          consistent, compatible climate change strategies across EPA or to make the best
          use of declining research dollars. EPA regions have multiple climate change
          needs, including the need for information on a variety of different climate change
          topics. Regions stated that they needed technical climate change research and
          tools, as well as other climate change policy guidance and direction. In the
          meantime, EPA’s Office of Water and regional offices have independently
          developed, or are in the process of developing, individual climate change
          strategies and plans. The lack of an overall climate change policy can result in
          duplication, inconsistent approaches, and wasted resources among EPA’s regions
          and offices.

EPA Regions Need Differing Climate Change Information
          Regional respondents to our survey identified a variety of different, emerging
          climate change information needs. They need technical climate change research
          or information, as well as related policy guidance and direction.

          Regions Need Technical Information

          Regions stated they would like technical information on:

             •	 impacts of climate change,
             •	 mitigation or greenhouse gas emissions reduction/energy efficiency
                technologies,
             •	 tools to assess the effectiveness of emissions reduction technologies and
                climate change policy decisions, and
             •	 adaptation strategies to moderate potential climate-related damage and
                preventive measures.

          Table 2.1 shows the types of climate change information regions require.
          Regions 2 and 8 were in the process of identifying climate change research and
          information needs, and did not identify specific needs at the time of our survey.




                                           7

                                                                         09-P-0089


Table 2.1: Regional Climate Change Information Needs
                                           Effectiveness of
           Impact of                   Mitigation Technologies
            Climate      Mitigation      and Climate Change         Adaptation
 Region     Change      Technologies            Policies            Strategies
    1          x              x                    x
    3          x              x
    4          x                                   x                     x
    5                                              x
    6          x              x                    x
    7          x
    9          x              x                    x                     x
   10          x                                   x                     x
Source: OIG

Seven regions stated they require a variety of technical information on the impact
of climate change. For example, they need information on the potential impacts
of temperature and health effects, food supply considerations, and local and
regional impacts. Region 6 stated that it would like information on the impact of
rising water on aquifers and ground water monitoring. Region 7 stated it would
like information on the impacts on agricultural processes. Region 9 stated that it
would like information on the impacts on water bodies and agriculture due to
changing pest pressures and invasive species.

Several regions identified information needs on mitigation technologies. Regions
stated that they would like additional information on alternative energy sources
such as biofuel, solar, and wind technologies. Regions 6 and 9 require
information on carbon sequestration, specifically regarding the feasibility of
sequestration at Superfund sites. They also need information on the safety and
efficacy of geologic carbon sequestration.

Regions stated they require tools to assess the effectiveness of mitigation
technologies along with anticipated climate change policies. For example,
Regions 2 and 6 needed computer models to determine the effectiveness of
mitigation technologies and their impact on policy decisions and planning
processes. Regions 5 and 6 stated that they would like information on the
effectiveness of using bio-fuels, such as corn ethanol, as a method for reducing
greenhouse gases. Regions 1 and 6 would like to develop emissions inventories
to monitor reducing greenhouse gases, and would like to have a common protocol
to quantify the benefits of energy efficiencies.

Regions also stated they would like information on adaptation strategies,
including tools to asses their effectiveness. For example, Region 1 stated that,
“As the likely impacts of climate change become better understood, we have
become more and more interested in science-based tools (e.g., predictive models
of coastal impacts) to assist states and communities in preparing for those impacts
(e.g., predictive models of impacts on coasts).” Region 9 stated that it wanted
information on how to develop alternative approaches to storing surface water for


                                 8

                                                                                                          09-P-0089 



                  dry seasons. Region 10 listed several adaptation information needs such as
                  identifying appropriate water infrastructure, and ensuring the integrity of drinking
                  water systems in case of sea level rise and episodic flooding, both potential
                  hazards of climate change. Region 10 also stated its tribal communities require
                  information and adaptation strategies that are consistent with tribal cultural
                  perspectives.

                  Regions Need Policy Guidance and Direction

                  Regions stated in survey responses that they need additional policy guidance and
                  direction on climate change and related research. They said they need this
                  information in anticipation of any new climate change legislation. They need the
                  information not necessarily from ORD, but from other EPA program offices. For
                  example, Region 1 anticipates needing to provide effective technical guidance to
                  operators of wastewater treatment plants to ensure the greatest possible energy
                  efficiency. Region 1 anticipates needing presentations, brochures, and other
                  outreach material to educate the regulated community and the public about
                  specific requirements. Region 9 staff need guidance on whether to allow
                  permitting of new coal-power electricity plants.6 Region 10 needs guidance on air
                  quality programs and how to align timelines and schedules of implementing these
                  programs when addressing climate change impacts. Some regional
                  representatives need guidance on how to assess climate change from a tribal
                  perspective along with plans to attain and maintain air quality standards.

EPA’s Office of Water and Most Regional Offices Are Independently
Developing Climate Change Strategies
                  EPA’s Office of Water and most regional offices are independently developing
                  their own climate change strategies or plans. Although the Administrator issued a
                  working paper on energy and climate, as discussed in Chapter 1, EPA does not
                  have an overall climate change policy. EPA’s Office of Water has developed its
                  own draft climate change strategy, and 7 of 10 EPA regions responded to surveys
                  that they had or were working on their own climate change plans or strategies.

                  The Office of Water did not respond to our survey because at the time it was
                  developing a strategy to deal with the impact of climate change. Office of Water
                  staff stated that they are in the early stages of understanding how climate change
                  will affect different water programs. Although the Office of Water has an idea of
                  how climate will affect water resources based on best professional judgments, the
                  Office is waiting to receive scientific feedback to better understand the nature of
                  the problem.



6
 Some new power plants had designs to utilize geologic carbon sequestration. However, because the safety and
efficacy of carbon sequestration has not been established, Region 9 cannot determine if it can issue permits to the
power plants.


                                                          9

                                                                                                        09-P-0089 



                 EPA Regions 1, 2, 5, 6, 8, 9, and 10 have either developed draft strategies or are
                 developing draft climate change action plans or strategies.7 However, climate
                 change poses a new set of challenges. Region 9, for example, stated that two
                 major challenges are “deciding what degree to implement the highest priority
                 activities and how to accomplish the work.” In general, the regions are looking
                 into how they can further reduce greenhouse gas emissions and how to create
                 strategies to help them adapt to climate change.

Conclusions
                 EPA regional offices stated they need a variety of research products, technical
                 information, or tools on climate change impacts, adaptation, and mitigation.
                 Moreover, regions require policy guidance and direction on how to implement
                 any new climate change legislation. In the meantime, some program and regional
                 offices are independently creating separate, individual climate change action plans
                 and strategies.

                 An overall EPA strategy for climate change should:

                      •	 lead to clear research requirements,
                      •	 help the Agency fulfill its climate change role, and
                      •	 provide “unity” of action so regions and program offices can proceed with
                         confidence in establishing their own climate change strategies and plans.

                 Such a national strategy does not yet exist. The lack of an overall climate change
                 policy can result in duplication, inconsistent approaches, and wasted resources
                 among EPA’s regions and offices. EPA has not issued interim guidance to give
                 its major components consistent direction so that a compatible national policy –
                 when it emerges – will not result in wasted efforts.

Recommendation
                 We recommend that the Deputy Administrator:

                 2-1	 Direct Assistant and Regional Administrators on how to plan for climate
                      change challenges in their media areas/regions until the Agency develops an
                      overall strategy.

Agency Comments and OIG Evaluation
                 The Agency concurred with our recommendation. Recently, the Agency initiated
                 a process that will contribute to an Agency approach on climate change.
                 Additionally, the Agency agreed to provide the OIG with progress updates. To

7
  One region did not indicate whether it had developed a strategy or was developing a climate change action plan or
strategy.


                                                        10 

                                                                       09-P-0089 



meet the OIG’s requirements, the Agency’s approach should also include
milestones for each specified action. The Agency’s written response, as well as
our evaluation of Agency comments, is in Appendix A.




                                11 

                                                                                                      09-P-0089 





                                           Chapter 3
         Research Plan Does Not Address All Regions’
                   Climate Change Needs

                 GCRP’s January 2008 draft research plan does not address the full range of
                 EPA’s climate change information needs. Regions need climate change tools and
                 information to fulfill EPA’s regulatory responsibilities. In addition, the timing or
                 the scope of GCRP’s planned research projects do not match the timing or the
                 scope of regions’ needs. Finally, ORD lacks procedures to ensure it meets
                 internal EPA climate change information needs effectively.

Regions Need Climate Change Information and Tools Directed at
Regional and Local Levels
                 EPA regions need climate change information and tools directed at regional and
                 local levels. They need this information and these tools, in part, to fulfill EPA’s
                 regulatory responsibilities related to their programs. Regions’ areas of concern
                 include air quality; projections of sea level rise affecting their regions; and
                 impacts of episodic flooding on water infrastructure, wetlands, and critical habitat
                 for endangered species in their local areas.

                 GCRP completed a national level preliminary assessment of the implications of
                 climate change for air quality across the United States in September 2007. GCRP
                 plans to complete a more comprehensive assessment and report on the climate
                 change impact on national and regional air quality by 2012. However, regions
                 need information and tools to fulfill EPA’s regulatory responsibilities related to
                 their specific programs and activities, such as approving State Implementation
                 Plans8 and permits. Regions require tools and models that they can use to assess
                 the climate change impact on air quality at a more local level. In many cases, air
                 quality problems are localized, and climate change impacts on air quality vary
                 from one geographic area to another.

                 Seven regions (Regions 1, 4, 5, 6, 7, 9, and 10) stated that they require regional or
                 local scale models to develop adaptation strategies that would work for their
                 cities, States, and regions. For example, Regions 6, 9, and 10 need research on
                 sea level rise specific to their geographic region. Their concerns include the
                 impact of sea level rise on the quality and quantity of drinking water, and on
                 waste water treatment plants. These regions are also concerned about sea level
                 rise near Superfund sites in their coastal areas. Regions 6 and 9 need regional


8
 State Implementation Plans identify how each State will attain and/or maintain the primary and secondary
National Ambient Air Quality Standards.


                                                       12 

                                                                                    09-P-0089 



          level analysis on the severity and frequency of drought, and the decrease in
          mountain snow pack.

          Similarly, regions need geographic-specific predicted impacts in other areas for
          resource planning and management. For example, Region 7 needs research on
          disaster-related weather events, and the impact of climate change on agricultural
          processes in its region. Region 10 needs region-specific climate change impact
          information to inform local decision makers on building adaptation infrastructure,
          such as additional sea walls or dikes. This infrastructure could be impacted by
          increased storm intensity and tidal surges that can cause damage to facilities, as
          well as damage due to sea level rise.

The Timing and Scope of ORD’s Planned Projects Do Not Meet Key
Regional Needs
          Although GCRP’s draft 2008-2012 Multi-Year Plan addresses most of the topic
          areas identified by regions, the timing and scope of the planned research projects
          do not meet key regional needs. We compared research topics and delivery dates
          of the planned research topics to the information needs the regions identified in
          response to our survey in December 2007. We concluded that the planned
          completion dates for many of GCRP's planned research topics do not meet all of
          the regions’ needs. Regions started developing their climate change strategies and
          plans after the EPA Administrator added climate change to his list of priorities for
          regions in June 2007. However, the survey responses show that the regions need
          information on many climate change topics within the next year or even
          immediately.

          We asked in our survey for the regions to list five current or future climate
          change-related decisions or areas of concerns. The regions listed 57 decisions or
          areas of concerns. We then summarized these 57 decisions or concerns into 11
          summary categories, and compared them to the draft 2008-2012 Multi-Year Plan,
          as shown in Table 3.1.




                                           13 

                                                                                  09-P-0089



Table 3.1: Regional Research Needs versus GCRP’s Planned Research Projects
                                                                                   GCRP
     Regional           Regions That           Addressed                          Timeline
   Decision or            Cited the             in GCRP     Regional Timeline     Satisfies
     Concern             Decision or           Multi-Year   When Information      Regional
     Category             Concern                 Plan?         Is Needed         Needs?
 1. Air quality             9, 10                  Yes       Ongoing, 1 to 2        Yes
    impacts                                                 years, immediately
 2. Clean energy/            1, 6                 Yes         Immediately,          Yes
    efficiency                                                medium term
 3. Water quality/        1, 5, 6, 10             Yes       Ongoing, Jan/2010,      Yes
    Quantity/                                                   short-term
    Wastewater
 4. Sea level                6, 9                 Yes           Short term,         Yes
    changes                                                 Jan/2010, 3-5 years
 5. Ecosystem              6, 9, 10               Yes        2008, June 2011,       Yes
    services                                                  within 3-5 years
 6. Droughts/                6, 9                 Yes          Jan/2010, 3-5        Yes
    water                                                    years, 5-10 years
    variability
 7. Adaptation               4, 8                 Yes             ASAP               No
    strategies
 8. Renewables/            3, 5, 6, 9             Yes        Ongoing, ASAP,          No
    Biofuels (wind                                          presently, Jan/2009
    & solar)                                                    immediately
 9. Mitigation               4, 6                 Yes             ASAP               No
    models
10. Impact models        1, 3, 4, 6, 9            Yes          Continuous,         Cannot
                                                            presently, ASAP,      determine
                                                             Jan/2012, June
                                                            2012, immediately
11. Sequestration         3, 5, 6, 9              Yes       Presently, ASAP,       Cannot
                                                              long-term, 2-5      determine
                                                                  years
Source: OIG analysis of survey responses and GCRP’s Draft Multi-Year Plan. The 11 numbered
categories do not represent any priority.

We compared regional research needs and desired timeframes to GCRP’s planned
products and their estimated completion dates. We found that GCRP’s draft plan
addressed 6 of the 11 summary categories in some manner. As shown above in
Table 3.1, GCRP is planning to provide the type of information requested by the
regions in the first six categories soon enough to meet the regions’ needs.
However, GCRP’s timeframe for delivery did not match the regions’ needs in at
least three categories. In the last two categories above, we could not determine
for certain whether GCRP was planning to provide the type of information
requested by the regions soon enough to meet the regions’ needs.

As shown in Table 3.1, GCRP plans to satisfy the regions’ air quality impact
needs on time. GRCP is researching climate change air quality impact measures,
and plans other similar projects. The research topics include the impact of climate



                                        14 

                                                                                     09-P-0089 



          change on U.S. particulate matter concentrations, and the human health impacts
          due to global change effects on air quality. GCRP plans projects in these two
          topic areas for 2009 and 2011, respectively. The regions stated that they needed
          these types of products either immediately, “ongoing,” or in 1-2 years. GCRP
          plans to satisfy these needs on time.

          On the other hand, the regions are also asking for information on bio-fuel, solar,
          and wind farm technologies. The regions also need information on the possibility
          of widespread environmental damage associated with large-scale increased corn
          production for use in ethanol production. Responses from different regions listed
          the time they need this information as immediate, “ongoing,” and “ASAP.”
          However, according to the draft Multi-Year Plan, GCRP does not plan to
          complete its renewable fuels research until 2011. In the interim, ORD has
          established a work group on bio-fuels that includes participants from regions,
          OAR, and ORD. ORD representatives stated that regions can obtain interim
          results by joining the workgroup.

EPA Lacks Policies to Meet Internal Climate Change Information
Needs Effectively

          EPA’s policies and procedures do not ensure that it can meet the climate change
          research information needs of its program offices and regions. EPA does not have
          a repository of climate change research conducted by the other agencies. While
          ORD has set up processes for communicating with regions, the processes do not
          have the force of policy. As a result, ORD’s communication of research results is
          not coordinated or consistent. Finally, EPA does not have a policy to ensure that
          climate change research is effectively coordinated between ORD, program
          offices, and regions.

          EPA Does Not Have a Central Repository of Climate Change
          Information

          EPA does not have a central repository of climate change-related research
          information. ORD does not systematically or comprehensively collect climate
          change research information and make it available to EPA’s internal users. EPA
          regions and program offices regularly need and obtain climate change research
          information from external sources.

          Responses to the survey showed that regions and program offices use a variety of
          sources outside of EPA for obtaining climate change research information they
          need to carry out their responsibilities. Regions obtain this information through
          their own informal networks and contacts. The sources they turn to include other
          federal agencies, non-governmental organizations, academic researchers, and
          international organizations. Fourteen of 16 respondents stated that they get
          climate change research information from other federal agencies. Survey
          respondents stated that the information they need to carry out their responsibilities


                                           15 

                                                                        09-P-0089 



may be located at the Department of Energy, the National Oceanic and
Atmospheric Administration, or the Department of Agriculture. However, ORD
does not systematically collect that information and make it available to EPA
users. For example, Region 10 uses regional sea level rise information from the
National Oceanic and Atmospheric Administration because ORD focuses on sea
level rise from a national perspective. Region 5 uses research from the
Department of Agriculture related to land use and bio-fuels. Region 6 gets
emissions research information from the Department of Energy. However, survey
respondents also mentioned informal methods and networks staff use to obtain
information from external sources. The potential for duplication of effort and
inefficiency exists when EPA staff in regions and program offices independently
collect information from external sources.

ORD Does Not Systematically Communicate Research Results

ORD does not systematically communicate all relevant research results to its
users. ORD uses formal and informal mechanisms to share results of its research.
Formal mechanisms include publishing reports in technical journals, reporting to
the CCSP, and publishing information on EPA Websites. GCRP’s research
products are also published in CCSP reports and posted on the CCSP Website.
ORD established a Science Inventory with the intent of compiling all ORD
research reports. According to ORD, each EPA office is responsible for adding
its own science activities to the inventory. However, the Science Inventory is not
current because it has not been consistently updated or maintained.

ORD’s GCRP recently established a new Web-based climate change-related tool
called the Environmental Science Connector. This tool is accessible to all EPA
users. This Web-based tool contains a variety of GCRP climate change research-
related information. However, it contains only GCRP documents, is still in the
early stages of implementation, and is still being refined. According to ORD,
they also have other systematic methods of communicating the results of their
research, including:

   •   a new public Website, Science to Achieve Results,
   •   regularly-scheduled Science to Achieve Results progress review sessions,
   •   fact sheets, and
   •   public lectures and presentations.

Nonetheless, EPA survey respondents indicate that these methods are not entirely
effective.

ORD’s informal processes to communicate climate change research information
to regions and program offices include workshops, meetings, and weekly
telephone calls with the GCRP National Program Director in which regions and
program offices can participate. However, since these processes are informal,
participation is inconsistent and only partly effective.


                                16 

                                                                                   09-P-0089 



         EPA Does Not Have a Policy to Ensure Research is Effectively
         Coordinated

         ORD routinely included the regional offices when developing its new draft Multi-
         Year Plan through Research Coordinating Teams. However, EPA does not have a
         formal policy to ensure that climate change research is effectively coordinated
         among ORD, program offices, and regions.

         ORD’s research selection process is not transparent to the regions. The March
         2006 BOSC report stated that ORD should have a transparent priority setting
         process so stakeholders understand how ORD chooses issues to address.
         Transparency is necessary so stakeholders understand how they can participate in
         the process. In developing its new draft Multi-Year Plan and research strategy,
         ORD coordinated with regions by asking them for their research requirements.
         However, regions do not know why some topics were selected and others were
         not. In some instances, when a research topic is not chosen, the reason is not
         documented or communicated. Survey results and our follow-up interviews with
         regional representatives show that the regions did not know how and why topics
         were selected or not selected for research.

         We also found that ORD does not have a system to track regional research
         requirements from the time they are received to the time a decision is made about
         whether and how the requirement will be met. ORD also does not track research
         requests or products by requestor. However, managers from ORD’s Office of
         Science Policy told us that a project is underway to establish a database that will
         track research needs to completion and to the requestor.

         Additionally, ORD does not have a formal, systematic mechanism to obtain
         feedback on how well its research products meet users’ requirements. The March
         2006 BOSC report stated that ORD needed to focus more on ensuring that
         information provided to decision makers is valuable, applicable, and
         understandable. In response to our discussion draft, ORD indicated that it will
         conduct a survey before the next BOSC review.

Conclusions
         In 2007, EPA program offices and regions began identifying their research and
         information needs to fulfill their responsibilities. However, EPA does not yet
         have a comprehensive climate change research plan that matches EPA’s evolving
         climate change role. ORD’s current climate change research products and plans
         do not meet users’ needs in timeliness or scope. Some changes in policy and
         procedures are needed to ensure ORD can meet regions’ climate change research
         information needs.

         When the EPA Administrator added climate change as a regional priority in June
         2007, regions began identifying new climate change information needs. Before


                                          17 

                                                                                      09-P-0089 



           that time, regions generally did not request specific climate change-related
           research. To address the new priority, regions need some climate change
           information immediately or in the very near future.

           Compounding the situation, ORD does not maintain a central repository of
           climate change research information from other sources that EPA’s internal users
           frequently need. Nor does ORD have a formal policy to systematically
           communicate climate change research to regions or other interested parties. The
           Science Inventory database is not current, and the new Environmental Science
           Connector is in the early implementation stage and still being refined. In
           addition, ORD’s research selection process is not transparent, and ORD does not
           yet have a system to track regional research requirements to completed research
           products or to requestors. Finally, ORD does not have a formal mechanism to
           obtain feedback from regions and program offices on how well its research
           products meet users’ requirements or information needs. These issues can result
           in an ineffective use of resources, which could be avoided through better
           management controls. Implementation of our recommendations will also help
           make the best use of declining resources.

Recommendations
    We recommend that the Deputy Administrator:

           3-1 	   Establish guidance to programs and regional offices for regularly entering
                   their climate change scientific information in the Science Inventory.

    Further, we recommend that the Assistant Administrator for the Office of Research and
    Development:

           3-2     Ensure that ORD continues to routinely update the Science Inventory to
                   include the latest information from its laboratories and centers.

           3-3     Establish a formal, transparent research requirements determination
                   process that includes well-defined procedures for identifying a unified set
                   of priority climate change research needs.

           3-4     Establish a formal mechanism to track regional research needs from
                   research project selection to completion, and to requestor.

           3-5     Establish a formal method for coordinating GCRP’s research work with
                   regions and program offices, communicating research results, and
                   collecting feedback on research products. The feedback requested should
                   include the accessibility, usability, value, and awareness of updates to the
                   Science Inventory and the Environmental Science Connector.




                                            18 

                                                                                09-P-0089 



Agency Comments and OIG Evaluation
         ORD concurred with our recommendations; however, many of the responses
         include prospective actions. The Agency must submit a Corrective Action Plan
         including milestones and dates for these proposed actions. The Agency’s
         complete final written response and OIG evaluation are in Appendix A. EPA’s
         preliminary memorandum response and OIG comments are in Appendix B.

         In response to the first recommendation, EPA agreed that Agency’s scientific
         results must be readily accessible, and agreed to establish guidance for EPA’s
         regional and program offices. Similarly, in response to the second
         recommendation, ORD agrees to ensure that its labs and centers use the Science
         Inventory and the Environmental Science Connector to share their current
         research across the Agency. ORD will also evaluate the effectiveness of the
         mechanisms for providing current scientific information. In response to the third
         and fourth recommendations, ORD plans to formalize and document the process
         for selecting and prioritizing research requirements from EPA’s program and
         regional offices and share it Agency wide. ORD plans to issue a memorandum
         document with details on the selection and tracking processes to Deputy Assistant
         Administrators, Deputy Regional Administrators, Research Coordinating Teams,
         Regional Science Liaisons, and Climate Coordinators in December 2009. In
         response to the fifth recommendation, ORD stated that it will document and
         formalize the mechanisms ORD uses for communication and collecting feedback
         in a fact sheet and share it with stakeholders within the Agency. Additionally,
         ORD stated that GCRP plans to issue a survey to assess the timeliness and
         usefulness of its research products prior to the next BOSC review in 2010.




                                         19 

                                                                                                                                          09-P-0089



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1           Action Official         Date      Amount      Amount

    2-1       10    Direct Assistant and Regional Administrators on           O             Deputy Administrator
                    how to plan for climate change challenges in their
                    media areas/regions until the Agency develops an
                    overall strategy.

    3-1       18   Establish guidance to programs and regional offices        O             Deputy Administrator
                   for regularly entering their climate change scientific
                   information in the Science Inventory.

    3-2       18    Ensure that ORD continues to routinely update the         O         Assistant Administrator,
                    Science Inventory to include the latest information                 Office of Research and
                    from its laboratories and centers.                                       Development

    3-3       18    Establish a formal, transparent research                  O         Assistant Administrator,
                    requirements determination process that includes                    Office of Research and
                    well-defined procedures for identifying a unified set                    Development
                    of priority climate change research needs.

    3-4      18     Establish a formal mechanism to track regional            O         Assistant Administrator,
                    research needs from research project selection to                   Office of Research and
                    completion, and to requestor.                                            Development

    3-5      18     Establish a formal method for coordinating GCRP’s         O         Assistant Administrator,
                    research work with regions and program offices,                     Office of Research and
                    communicating research results, and collecting                           Development
                    feedback on research products. The feedback
                    requested should include the accessibility,
                    usability, value, and awareness of updates to the
                    Science Inventory and the Environmental Science
                    Connector.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                      20

                                                                                    09-P-0089


                                                                                Appendix A

              Agency Response and OIG Evaluation

 This Appendix provides the Agency’s January 8, 2009, response to our recommendations
 followed by OIG evaluation of each response. We provide the Agency’s October 21, 2008,
 memorandum in Appendix B.


MEMORANDUM


SUBJECT:      Final Response to Recommendations in the Office of the Inspector General’s
              Draft Evaluation Report on Climate Change, Assignment No. 2007-0731

FROM:         Marcus Peacock
              Deputy Administrator

TO:           Wade T. Najjum
              Assistant Inspector General for Program Evaluation


       Thank you for providing the updates to your recommendations pursuant to staff
discussions at the November 25, 2008 exit conference. We concur with your recommendations
and have begun to take actions to implement them. Please see the Attachment for our revised
responses to your recommendations.

     For comments on specific findings in your report, please refer back to my October
memorandum to Jeffrey Harris, OIG Director of Special Studies.

       I look forward to reviewing your final report and working with you to enhance EPA’s
climate change efforts.


Attachment




                                               21

                                                                                                        09-P-0089 



                          Attachment: Response to OIG Recommendations


Introductory Note: As requested, we are providing our response in the Office of Inspector
General’s desired “concurrence/non-concurrence” format in accordance with your memorandum
and the U.S. Environmental Protection Agency’s Audit Management Process.9 It is important to
note that EPA is already implementing, or has begun to implement, appropriate actions
consistent with the intent of all of your recommendations. We propose “supplementary actions”
where we believe EPA can further enhance its work in response to OIG’s findings.


Recommendation 2-1: “…that the Deputy Administrator…direct AAs and RAs on how to
plan for climate change challenges in media areas/regions until the Agency develops an
overall strategy.”

        >> Concurrence: The Deputy Administrator has initiated a process contributing to an
        Agency approach on climate change. The OIG report properly recognizes the importance
        of cross-Agency coordination in the development of program policy and information
        needs to address the challenge of climate change. Recognizing the importance of a more
        comprehensive approach, the Deputy Administrator recently convened EPA’s Deputy
        Assistant Administrators and Deputy Regional Administrators to follow up on the key
        coordination issues identified in the July 2008 Senior Leadership Council meeting.
        DAAs and DRAs will develop an Agency approach to this important environmental
        challenge. This process is in its initial stages and, as it moves forward, we would be
        pleased to provide the OIG with an update on its progress.

          OIG Response: Subsequent to our discussion draft, the Deputy Administrator
          initiated a process to develop an Agency approach to climate change challenges. OIG
          believes that the initial steps taken by the Deputy Administrator with the Deputy
          Assistant Administrators and Deputy Regional Administrators are necessary for the
          development of a comprehensive Agency strategy on climate change. The OIG
          accepts development of an Agency approach by the Deputy Assistant Administrators
          and Deputy Regional Administrators as meeting the intent of the recommendation.
          This approach should also include milestones for each specified action.


Recommendation 3-1: “…that the Deputy Administrator …establish guidance to programs
and regional offices for regularly entering their climate change scientific information in the
Science Inventory.”

9
 http://intranet.epa.gov/rmpolicy/ads/manuals/2750_2_t.pdf
“In responding to the draft report, the Action Official can concur with the findings or provide explanations for any
disagreements. The Action Official may comment on the accuracy of findings and conclusions, the appropriateness
of the recommendations, or offer alternative recommendations. Responding to the draft report also offers the
opportunity for the Action Official to provide new documentation or information to the auditors. Generally, the OIG
will include the Action Official’s response to the draft report as an appendix to the final report.” (8-1)




                                                         22

                                                                                      09-P-0089 





       >> Concurrence: EPA agrees that the results of its scientific research must be readily
       accessible. The Deputy Administrator will continue to issue guidance to program and
       regional offices, which have the responsibility of entering and maintaining their own
       scientific information in the Science Inventory.

        OIG Response: The Agency concurred with Recommendation 3-1 and agrees to
        issue guidance to program offices and regions, which have the responsibility of
        entering and maintaining their own scientific information in the Science Inventory.
        Similarly, ORD agreed to evaluate the effectiveness of its mechanisms and to ensure
        that its labs and centers provide their most current information. EPA should provide
        a Corrective Action Plan with completion dates and details of plans for updating the
        Science Inventory, and maintaining the Environmental Science Connector.


Recommendation 3-2: “…that the AA/ORD ensures that ORD continue to routinely
update the Science Inventory to include the latest information from its laboratories and
centers.”

       >> Concurrence: The Office of Research and Development provides the Science
       Inventory and the Environmental Science Connector as Agency-wide depositories for
       EPA’s scientific information. ORD will continue to evaluate the effectiveness of these
       mechanisms and will continue to ensure that its labs and centers provide their most
       current information.

        OIG Response: Same as for Recommendation 3-1.


Recommendation 3-3: “…that the AA/ORD establish…a formal, transparent process to
determine research requirements that includes well-defined procedures for identifying a
unified set of priority climate change research needs.”

       >> Concurrence: ORD’s Global Change Research Program has an effective process in
       place to determine the highest-priority research requirements of EPA programs and
       regions and of the Climate Change Science Program. GCRP’s prioritization process
       includes the Research Coordination Team, Regional Science Liaisons, Climate
       Coordinators, weekly cross-Agency conference calls, and other formal and informal
       mechanisms.

       The GCRP Research Coordination Team consists of representatives from ORD, program
       offices, and all regional offices. The RCT facilitates research planning and
       communication and prioritizes both individual and collective research needs. RSLs are
       regional employees who have a well-defined role to coordinate and communicate with
       ORD. In addition to the RSLs, Climate Coordinators in select regions are actively
       engaged in prioritizing research activities.




                                               23

                                                                                      09-P-0089 



      When determining priorities, GCRP must consider the individual requests of programs
      and regions, as well its interagency responsibilities under the Climate Change Science
      Program. For example, in Fiscal Years 2007 and 2008, the highest-priority research
      activity for ORD’s GCRP was the production of two CCSP Synthesis and Assessment
      Reports.

      >> Supplementary action planned: See the “supplementary action” under
      Recommendation 3-4, which we believe will further formalize and communicate ORD’s
      current process.

        OIG Response: The Agency concurred; however, we consider this item open,
        pending review of the detail in the Corrective Action Plan with completion dates and
        details of formal documentation of the selection process. We acknowledge that ORD
        uses some informal processes regularly to involve regional offices in obtaining their
        research needs. We also acknowledge that ORD has to balance the information needs
        of regions and program offices with its inter-agency responsibilities. However, the
        regions need to understand how and why certain topics are selected and others are not,
        to improve their own planning. Therefore it is important that ORD document and
        share its research prioritization process with EPA’s internal users.

Recommendation 3-4: “…that the AA/ORD establish…a formal mechanism to track
Regional research needs from research project selection to completion, and to requestor.”

      >> Concurrence: GCRP has mechanisms in place with programs and regions to track
      research needs from selection to completion (see response to Recommendation 3-3). To
      complement these mechanisms, GCRP maintains current information on its
      Environmental Science Connector site and makes this resource available to the entire
      Agency. GCRP will continue to focus its resources on the highest-priority research needs
      in global change.

      >> Supplementary action planned: To supplement its ongoing efforts to help partners
      in program and regional offices better understand ORD’s mechanisms and criteria for
      selecting research projects, ORD will provide additional information in a memo to
      Deputy Assistant Administrators, Deputy Regional Administrators, Research
      Coordination Teams, Regional Science Liaisons, and Climate Coordinators. This memo,
      to be sent in December 2009, will formally document the selection process and explain
      how the Science Connector tracks projects from selection to completion and
      communication.


        OIG Response: The Agency concurred. However, we consider this item open,
        subject to our review of a Corrective Action Plan with completion dates and details of
        the formal documentation of the tracking of projects from selection to completion and
        communication, proposed as a supplementary action plan.




                                               24

                                                                                             09-P-0089 



Recommendation 3-5: “…that the AA/ORD establish…a formal method for coordinating
GCRP’s research work with Regions and Program Offices, communicating research
results, and collecting feedback on research products. The feedback requested should
include the accessibility, usability, value, and awareness of updates to the Science Inventory
and Environmental Science Connector.”

           >> Concurrence: ORD/GCRP already uses several mechanisms to coordinate,
           communicate, and collect feedback. The Environmental Science Connector’s “Global
           Change Resource Center” and GCRP’s new public website10 are two tools used by ORD
           to coordinate and communicate its global change research. In addition, GCRP’s National
           Program Director uses weekly Global Conference Calls to obtain feedback from all
           program and regional offices.

           >> Supplementary action planned: To further formalize its ongoing efforts,
           ORD/GCRP will develop an internal fact sheet summarizing the mechanisms that ORD
           has already put in place to communicate and coordinate GCRP’s work with the programs
           and regions. ORD will share this factsheet with stakeholders across the Agency to
           improve their awareness of GCRP’s resources, and GCRP will update the factsheet as
           new mechanisms are developed.

           Additionally, ORD has begun to survey EPA stakeholders about the timeliness and
           usefulness of its products in order to enhance research planning. GCRP plans to issue
           such a survey prior to its next Board of Scientific Counselors review in 2010. The survey
           will include a request for feedback on the accessibility, usability, value, and awareness of
           updates to the Science Inventory and Environmental Science Connector.

             OIG Response: The Agency concurred; however, we consider this recommendation
             as an open item, subject to a Corrective Action Plan. We recognize that ORD uses
             tools and informal processes to communicate and coordinate its global change
             research. However, according to survey responses from both ORD and regional staff,
             these are informal practices, and they are ad hoc and inconsistent. The Corrective
             Action Plan should include the date and details about the fact sheet ORD plans to send
             to EPA’s offices, as well as how frequently it plans to update the fact sheets. It should
             also include the dates for the planned survey, and the type of staff ORD plans to
             survey.




10
     http://www.epa.gov/ord/npd/globalresearch-intro.htm


                                                           25
                                                                                         09-P-0089


                                                                                     Appendix B


   Agency Preliminary Comments and OIG Evaluation

 This appendix provides the October 21, 2008, memorandum comments mentioned in the EPA
 Deputy Administrator’s final response in Appendix A. The October comments have been
 superseded by the Agency’s January 8, 2009, memorandum and attachment. The following
 includes OIG evaluation and the Agency comments.


MEMORANDUM


SUBJECT:       OIG Evaluation Report on EPA’s Climate Change Research Activities

FROM:          Marcus Peacock
               Deputy Administrator

TO:            Jeffrey Harris
               Director, Special Studies, Office of Program Evaluation

        Thank you for your draft report on how well the U.S. Environmental Protection Agency’s
policies, procedures, and plans help ensure that EPA’s Global Change Research Program (GCRP
or Program) fulfills its role in meeting environmental decision-makers’ climate change
information needs. The insights and recommendations you provide in the report will help the
Agency continue to improve its efforts to address the challenges posed by climate change. I am
pleased to say that, with your help, we are already implementing a number of your
recommendations.

        As an overall point, I think the “At-a-Glance” section and aspects of the report could
more accurately represent the breadth, scope, and effectiveness of EPA’s Global Change
Research Program in the Office of Research and Development (ORD). I have provided
clarifications in the discussion below and in the Attachment, and I ask that you revise the “At-a-
Glance” section and the report accordingly.

        You correctly note in the report that ORD has responsibility for managing EPA’s global
climate change research function through its Global Change Research Program. GCRP is
subjected to regular, external peer reviews by the independent Board of Scientific Counselors
(BOSC). As you acknowledge in your report, the past two BOSC reviews of the GCRP (in 2006
and 2008) affirm that the Program is doing the “right work” and is doing it “well.” In addition,
the BOSC made recommendations for improvements in the Program, which have already been
implemented. Your review, combined with the BOSC reviews, will help further strengthen the
effectiveness of the GCRP.




                                                 26

                                                                                          09-P-0089


        It is important to emphasize in the report that ORD is responsible for only a subset of the
climate change information developed and used by the Agency. Other EPA program offices
conduct work related to GCRP activities that are coordinated with ORD. For example, the
Office of Water’s (OW) new Climate Change Strategy formally integrates ORD and OW
activities to address the implications of climate change for the Agency’s statutory, regulatory,
and programmatic requirements under the Clean Water Act and Safe Drinking Water Act.

 OIG Response: We reported that ORD is not the only responsible program office regarding
 climate change. For example, in the report Introduction we state, “The Office of Air and
 Radiation (OAR) has activities related to mitigating greenhouse gases.” We also reported that
 Office of Water was developing a strategy to address the impact of climate change on its
 programs; however, it had not been finalized at the time our field work was completed.

        Recognizing the importance of a more comprehensive approach to climate change, I
recently convened EPA’s Deputy Assistant Administrators (DAAs) and Deputy Regional
Administrators (DRAs) to follow up on key coordination issues identified at the July 2008 Senior
Leadership Council meeting. The DAAs and DRAs will further develop an Agency-wide
approach to climate change. Ultimately, I anticipate that this effort will lead to the development
of an overall Agency strategy.

        An Agency-wide strategy needs to consider EPA’s role as part of the broader federal
structure. The respective roles and responsibilities of all federal agencies are clearly defined and
distinguished under the U.S. Climate Change Science Program (CCSP) and U.S. Climate Change
Technology Program (CCTP). These two programs coordinate and integrate climate change
science and technology activities across the entire Federal Government, ensuring that resources
are used efficiently and duplication of effort is avoided. Your report recognizes the respective
roles of the CCSP and CCTP, but it should also acknowledge the importance of aligning an
Agency-wide strategy with these interagency programs.

        Considering the climate change information generated by other federal agencies as well
as other EPA program offices, a number of the Office of Inspector General’s (OIG) findings
extend beyond the purview of ORD/GCRP. For example, OIG’s chart on page 13 compares
regional information needs with GCRP plans. However, GCRP does not have lead responsibility
for a number of the areas listed (e.g. renewable energy, sequestration) and thus others are in a
better position to distribute this information to the regions.

       Similarly, OIG’s recommendation that ORD develop a central depository for climate
information is beyond the purview of ORD/GCRP. In many cases, EPA program offices and
regions need to look beyond GCRP to other parts of EPA and to interagency repositories to
access some of the information they seek.




                                                  27

                                                                                         09-P-0089 





 OIG Response: Recommendations 3-1 and 3-2 are directed at making EPA’s scientific
 information available to EPA’s internal users; it does not require collecting information
 developed by other federal agencies. During our field work, we found that EPA’s Science
 Inventory was not current. Internal sharing and maintaining EPA’s research information is
 necessary in order to avoid duplication of research effort and maximizing available resources.
 The Agency states that OAR is in better position to distribute information to the regions on
 renewables and sequestration. We note that ORD has included renewable energy and
 sequestration as research projects in its strategic plan. ORD and Office of Water were able to
 formally integrate activities addressing the implications of climate change. Similarly, ORD
 and OAR should coordinate their research and activities related to renewables and
 sequestration.

The report should acknowledge that any EPA policies and procedures for meeting the Agency’s
information needs must ensure that available resources are directed to their highest-valued uses.
Therefore, ORD/GCRP must consider the requests it receives from EPA’s program and regional
offices along with those of multiple other partners (e.g. other agencies), and GCRP must allocate
its resources to meet the highest-priority needs. For example, in Fiscal Years 2007 and 2008, the
highest-priority research activity for GCRP was the production of two CCSP Synthesis and
Assessment Reports.

        In contrast with the findings in your report, we believe ORD does have formal
mechanisms in place to prioritize its research activities (see Attachment for additional
information). New processes are already in place for making these mechanisms more transparent
to regional and program offices. At the same time, program and regional offices have the
responsibility to prioritize their research needs and communicate them to ORD. For example,
the regional climate change information needs presented in Table 2.1 of your report are not
prioritized, nor, as mentioned above, does the GCRP have the lead responsibility for a number of
these areas. The Global Change Research Coordination Team provides the venue for such
prioritization, consistent with an appreciation of the GCRP’s role in the context of the larger
federal effort.

 OIG Response: We acknowledge that ORD has to balance the information needs of regions
 and program offices with its inter-agency responsibilities. However, ORD does not have a
 “formal” mechanism for research prioritization that assures available resources are directed to
 their highest-valued uses. A “formal” mechanism or process would be documented and
 shared with the regions. While we noted that ORD uses several informal mechanisms to
 collect research needs from regions, participation in calls and workshops is not required by
 EPA policy, resulting in inconsistent participation. A formal EPA policy is needed.
 According to the Agency response to Recommendation 3-4, ORD plans to send such a
 memorandum in December 2009.


       It is important also to note that EPA will need a strong research and analytic capability in
the economics, as well as the science, of climate change. Going forward, EPA will need to
analyze the economic effects of any regulations promulgated under the Clean Air Act; to provide



                                                 28
                                                                                         09-P-0089 



technical expertise to the Congress as it develops and evaluates various legislative proposals; and
to help inform negotiations of any international accord to reduce greenhouse gas emissions
worldwide. All of these efforts will demand unprecedented economic modeling and analytic
efforts from the Agency. In the regulatory arena, most, if not all of the anticipated climate
change regulations will be economically significant, and therefore will require benefit-cost
analysis per Executive Order 12866. More importantly, analysis will be needed to provide
policy makers with key information about the most cost-effective and fair ways to reduce
greenhouse gases. This is equally true in the international arena: EPA will need to provide the
United States delegation and the world community with economic modeling that credibly
demonstrates the likely impacts of climate change as well as the economic impacts of taking
action under various approaches. Efforts to build these needed economic research capabilities
are already underway, primarily in the Office of Air and Radiation and the Office of Policy,
Economics, and Innovation.

       Most importantly, we agree with the spirit of your recommendations and have begun to
implement appropriate actions consistent with their intent. Please see the Attachment for our
responses to each of your specific recommendations.

        I look forward to working with you to ensure that the Agency has the necessary policies,
procedures, and plans in place so that the GCRP fulfills its role in the Agency’s and Federal
Government’s overall efforts to address global climate change. Thanks again for your help on
this effort.




                                                 29

                                                                                   09-P-0089


                                                                               Appendix C

                                    Distribution

Office of the Administrator
Deputy Administrator
Acting Assistant Administrator for Research and Development
Acting Principal Deputy Assistant Administrator for Air and Radiation
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Research and Development
Deputy Inspector General




                                              30

